December 9, 2019
Via Filing and Messenger
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

U.S. Patent & Trademark Office v. Booking.com B.V., No. 19-46

Dear Mr. Harris:
I represent the respondent in the above-captioned matter. I write to request an
extension of time to file the briefs as follows:
Brief of petitioner (and joint appendix):
Brief of respondent:

January 6, 2020
February 12, 2020

Both parties have agreed to the foregoing schedule, which would enable this case to be
heard during the Court’s March 2020 sitting. The parties believe that the requested
extension is appropriate given counsel’s other commitments, including preparing to present
argument before this Court, and due to the upcoming holidays.
Should you need any additional information from me, please do not hesitate to let
me know.
Yours sincerely,
/s/
Lisa S. Blatt
cc: Counsel for Petitioner

